                            CLOSEOUT FOR M-92040014




                                                         that its Graduate Honor System was



student under his siervision. falsified data included in his doctoral dissertation. A Dart of the




       The allegation of falsification of data arose after a series of events that began when the
complainant requested that the subject re-analyze one sample reported with a poster presentation
and described in his as yet unfinished thesis. He made this request because the original
photograph of this particular sample analysis for the subject's thesis was not clear enough.
However, the subject's re-analysis was different from his original result. As a consequence, the
complainant requested that the subject do a second re-analysis of this sample. The result of the
subject's second re-analysis proved different from either of his first two results. At this point,
faced with three different results for the same sample, the complainant requested that his
technician analyze the sample. The technician's result was different from any of the subject's
three previous results.

        This prompted the complainant to set up a blind experiment using a previously analyzed
sample as an unknown. The complainant's technician and the subject both analyzed the
unknown sample. The technician's result was identical to a previous analysis of the unknown,
whereas the subject's analysis was different. These discrepancies in analytical results prompted
an in-depth discussion between the subject and the complainant concerning the subject's sample
preparation and analytical procedures for these analyses. It was during this discussion that the
subject allegedly confessed to falsification of data in his thesis.

       The complainant requested that two other faculty members witness the subject's
admission that he had falsified data contained in several figures in his dissertation. At the
complainant's request, these two also witnessed the subject write, sign and date, a short
statement on each allegedly falsified figure that explained what he had done. Following the
subject's witnessed confession, the complainant foniially requested that the head of his
department officially tenninate the subject as a graduate student in his laboratory.

       The department head called a meeting of the subject's graduate advisory coinmittee which
                             CLOSEOUT FOR M-92040014                        -

was attended by the subject and complainant. The committee, 1) determined the time period
over which the alleged falsifications had occurred; 2) voted unanimously to terminate the
subject's participation in the doctoral program under its direction; and 3) voted unanimously to
not accept a request from the subject that he be permitted to resign as a graduate student.
Because the allegation represented a possible violation of its graduate student Honor Code, the
situation was forwarded to the graduate inquiry committee.

       The inquiry committee consisted of six student voting members and three faculty non-
voting advising members. The committee voted unanimously to investigate the allegation and
forwarded the case to the graduate investigation committee.

        The investigation committee consisted of five student voting members representing five
departments and four faculty voting members from four science departments. The subject
pleaded guilty to the charge of falsification of data for a Ph.D. dissertation at the committee
hearing. According to Honor Code regulations and procedures, " [tlhe accused must be adjudged
guilty before any consideration is given to the penalty, unless the accused pleads guilty, in which
case the deliberations shall focus solely on the penalty." The investigation committee
recommended the following sanctions: that the subject 1) be permanently dismissed from the
University, 2) lose all work accomplished in the most recent semester, and 3) have the
statement, "permanently dismissed for violation of the graduate Honor Code," placed on his
official transcript.

        The chairperson of the investigation committee notified the Dean in charge of the Honor
Code of the committee's decision. The Dean subsequently notified the subject of the decision
and the sanctions. The subject did not appeal the decision or sanctions. The Dean in charge
notified OIG that the subject had been found guilty of falsification of data, an act of misconduct
in science encompassed by NSF's regulations. In addition, OIG received a copy of the subject's
official academic transcript, verifying that the above stated sanctions were implemented by the
institution.

       OIG was informed that the complainant had notified all.the relevant symposia organizers
and journal editors in which the subject's falsified data. had been presented.

       OIG's evaluation of this case found that the institution adhered to its established graduate
Honor Code procedures and that the procedure was fair and the information accurate. OIG
subsequently learned that the subject had left the institution and returned to his country of origin.
OIG concluded that no further action was necessary to protect NSF's interests and, therefore,
closed this case.


cc: . Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, Counsel to IG, IG
